Date      : July 30, 2012

Reply to
Attn of   : Office of Inspector General (OIG)

Subject    : Management Letter No. 12-18, Veteran’s Records Issues

To        : David S. Ferriero, Archivist of the United States (N)

The National Archives and Records Administration (NARA) Office of Inspector General (OIG)
was recently alerted by personnel at the National Personnel Records Center (NPRC) in St. Louis,
Missouri that U.S. military veterans’ records which had been housed at NPRC were found
abandoned off the grounds of the facility. The OIG initiated a criminal investigation, which is
ongoing, and a joint team of OIG staff reviewing overall operations at St. Louis have identified
information of such significance that I believe it warrants a Management Letter at this early stage
to keep you fully and currently informed with what we have observed.

On initial review, the lack of internal controls, and ineffective internal controls which are in
place, leave us with no confidence our veterans’ Official Military Personnel Files (OMPF) and
their content are adequately protected. The loss or misfiling of records or individual OMPFs in
entirety is not an esoteric concern, but rather could cause real and tangible harm to our nation’s
veterans and their relatives who count on NPRC to provide them timely and full production of
records upon request.

NPRC is responsible for both refiling and interfiling military personnel and medical records.
Refiling consists of filing a personnel or medical folder back into the same records block from
which it was originally pulled. Interfiling occurs when miscellaneous papers forwarded to
NPRC by the service departments are filed into the existing folder associated with each
document. Interfiling can be a very labor intensive process. First a specific box must be located
out of the millions NPRC holds, then an individual file must be found out of possibly hundreds
in the box, and then each record must be secured in the folder. This work is generally done by
GS-3 to GS-5 level student employees, whose performance standards are directly related to how
many interfiles or refiles they accomplish in a time period. Interfile documents may include such
things as updates to a veteran’s DD-214, “20 year” letters verifying a reservist’s retirement
eligibility, medical records, casualty reports and a host of other documents. Our focus to date
has been on interfiles. Some of the issues identified so far include:
•	 NPRC does not screen individuals exiting the facility for records. We were told
   personnel can leave the facility with anything except a box, and if someone does have a
   box the guards have no instruction on how to search it, or what to look for. There has
   been a documented instance of a NARA employee removing records from a St. Louis
   facility in the past, and the current investigation demonstrates it continues. We have been
   told NPRC plans to start exit screening, but have been given various timelines for
   implementation.

•	 In response to the current investigation NPRC stated they conducted “extensive audits to
   include one hundred percent audit of at least one batch of interfiles for every employee
   who worked on interfile task during past six months.” However, OIG staff subsequently
   identified employees who worked on interfile tasks within the last six months who had
   not been audited. One of the employees not included in the previous “one hundred
   percent” audit was later found to have intentionally misfiled interfile records. Thus we
   may not place reliance upon assurance previously offered by NPRC officials.
   Management acknowledge the audit was done very expeditiously with the intent to
   identify any other instances of misconduct, and the error was made with no intent to
   deceive. Management has agreed to expand their audit in order to mitigate concerns.

•	 OIG staff observed NPRC staff performing an audit of interfile documents for
   approximately one hour. NPRC staff would search for records in the box at the location
   where each interfile document should have been filed, and would also search boxes
   adjacent to the proper location if the record could not be found. During this period
   NPRC staff found approximately 20 interfile records incorrectly filed in the wrong boxes.

•	 With limited exception interfile documents filed before June of 2011 cannot be associated
   with the employee who filed them. Therefore, if they were removed, intentionally hidden
   or filed incorrectly at NPRC it would be impossible to identify which employee was
   responsible. The process was updated in June of 2011 to identify employees who
   interfile, and NPRC instituted audits to test a small percentage of interfiles. However, no
   documentation was maintained for interfile audits which allegedly did not identify any
   issues, so they cannot be verified.

•	 When misfiled documents are discovered in a veteran’s folder, those documents are
   pulled and placed into the interfile system. No notifications are made to possibly affected
   parties who may have been searching for the file, and no annotation is made the
   document was misfiled.

•	 As the old facility at Page Avenue is being decommissioned, various documents
   including original records are being recovered by NPRC personnel. These include large
   caches of intentionally hidden interfile documents in pillars, intentionally hidden piles of
   microfiched military retiree files, files stuffed between the floor and bottom shelf, and
   files wedged between shelving units. To date approximately 4,000 documents have been
   recovered by NPRC including, among other things, DD-214s, medical documents,
   Distinguished Service Medal orders, casualty reports, reconstructed files, records


                                           Page 2

                            NARA’s web site is http://www.nara.gov

                 damaged during the 1973 fire, enrollments into the Defense Eligibility Reporting System,
                 and large amounts of internal NARA files . These original records are currently being
                 interfiled into the veterans' service records. Many more records are expected to be found
                 as significant amounts of stack space remain to be processed for these misplaced records.
                 NPRC has identified this will also be an issue at the building housing civilian personnel
                 records on Winnebago Street.

          • 	 The stacks in the new NPRC facility on Archives Drive have areas under the bottom
              shelves where records could be stashed in the same manner they were at the old Page
              Avenue facility.

         • 	 OIG staff also learned ofrefile records filed improperly despite NPRC's use of a Case
             Management and Reporting System (CMRS) which uses bar codes to track records.

      The volume of work, sensitivity of mission and consequence of failure at NPRC warrant the
      application and aggressive monitoring ofthe most stringent set of internal controls and related
      security mechanisms. While management is attempting to address incumbent and residual
      systemic internal control deficiencies, the OIG believes veterans' records continue to be at risk
      of loss, misfiling and unauthorized disposal and destruction. Our investigative work will
      continue. However, given audit staffing limitations, the ability ofthis office to provide
      necessary audit coverage in this programmatic function is limited and not expected to improve in




 //         (	                 /~
                                            /
      this budget environment. If you have any questions or require additional information, please

      ~nt:?/1~1~.
c.~
  Paul Brachfeld
  Inspector Gene al




                                                       Page 3 

                                        NARA's web site is http://www.nara.gov 

